Audit Report




OIG-12-062
RECOVERY ACT: Audit of Panther Creek Wind Farm III Payment
Under1603 Program


August 1, 2012




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report ..................................................................................... 1

   Results in Brief ........................................................................................... 1

   Background ............................................................................................... 3

   Objectives, Scope, and Methodology ............................................................. 4

   Audit Results ............................................................................................. 5

   Recommendations....................................................................................... 6

Appendices

   Appendix     1:      Schedule of Questioned Cost .................................................. 8
   Appendix     2:      Panther Creek III Response ..................................................... 9
   Appendix     2:      Management Response ......................................................... 10
   Appendix     3:      Major Contributors to This Report........................................... 11
   Appendix     4:      Report Distribution ............................................................... 12


Abbreviations

   E.ON                     E.ON Climate and Renewables North America, LLC
   MW                       megawatt
   NREL                     National Renewable Energy Laboratory
   OFAS                     Office of the Fiscal Assistant Secretary
   OIG                      Office of Inspector General
   Treas. Reg.              Treasury Regulation




                        Audit of Panther Creek Wind Farm III Payment Under 1603 Program                    Page i
                        (OIG-12-062)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                      August 1, 2012

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program),1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act),2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      EC&R Panther Creek Wind Farm III, LLC (Panther Creek III) for a
                      wind energy property spanning Glasscock and Sterling counties,
                      Texas. Panther Creek III submitted its claim for payment in lieu of
                      tax credit in the amount of $107,636,863 and was awarded that
                      amount by Treasury on January 08, 2010. Our audit objectives
                      were to assess the eligibility and accuracy of that award by
                      determining whether (1) the property existed, (2) the property was
                      placed into service during the eligible timeframe, and (3) the award
                      amount was appropriate.


Results in Brief
                      We verified that the subject property described by Panther Creek III
                      in its 1603 Program application does exist and was placed in
                      service on August 31, 2009, which was within the eligible
                      timeframe.




1
 Treasury’s Office of the Fiscal Assistant Secretary administers this program.
2
 Pub. L. No. 111-5, 123 Stat. 364-366 (Feb. 17, 2009). Under section 1603 of the Recovery Act,
Treasury makes grants (payments) to eligible persons who place in service specified energy property
and apply for such payments. The payments reimburse eligible applicants for a portion of the expense of
such property and are made in lieu of tax credits that could potentially be claimed by the awardees.

                      Audit of Panther Creek Wind Farm III Payment Under 1603 Program           Page 1
                      (OIG-12-062)
                        We also concluded that Panther Creek III’s reported cost basis of
                        $358,789,544 for the subject property included $2,488 for cost
                        related to window blinds that did not comply with Treasury
                        Regulation (Treas. Reg.) §1.263A-1.3

                        As a result, we are questioning $746 of Treasury’s 1603 Program
                        award to Panther Creek III (30 percent of $2,488). (See appendix 1
                        for the definition of a questioned cost.) Consequently, we are
                        recommending that the Fiscal Assistant Secretary (1) ensure that
                        Panther Creek III reimburse Treasury $746 for the excessive 1603
                        Program payment received and (2) direct Panther Creek III, E.ON
                        Climate and Renewables North America, LLC (E.ON), and affiliated
                        companies not to include in applications for 1603 Program awards
                        inappropriate or otherwise ineligible costs in the claimed cost basis.

                        Subsequent to our visit to E.ON, the parent company of Panther
                        Creek III, we reviewed Panther Creek III’s annual performance
                        reports submitted to Treasury for 2010 and 2011, certifying that
                        the subject property was not disposed of and that it continued to
                        qualify as a specified energy property. It should be noted that in
                        accordance with the terms and conditions of the award, Panther
                        Creek III must continue to certify that (1) the property has not been
                        sold, transferred, or disposed of to a disqualified person and (2) the
                        property continues to qualify as a specified energy property.

                        As part of our reporting process over 1603 Program awardees, we
                        provided Panther Creek III an opportunity to comment on this
                        report. Panther Creek III’s response can be found in appendix 2.
                        Panther Creek III concurred with the cost that we questioned.

                        Treasury management also concurred with our recommendations
                        and, among other things, will take action to seek repayment from
                        Panther Creek III in the amount of $746. Management’s response
                        is provided in appendix 3.




3
 Treas. Reg. § 1.263A-1(a)(3) (ii), Property produced, states: “Taxpayers that produce real property and
tangible personal property (producers) must capitalize all the direct costs of producing the property and
the property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.”

                        Audit of Panther Creek Wind Farm III Payment Under 1603 Program              Page 2
                        (OIG-12-062)
Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if a specified
                       energy property is placed in service during calendar years 2009,
                       2010, or 2011,4 and the amount awarded is in accordance with
                       provisions of the Internal Revenue Code for determining the
                       appropriate cost basis. Under the 1603 Program, applicants submit
                       an application to Treasury that reports the total eligible cost basis
                       of a specified energy property placed in service. If approved, award
                       amounts are based on a percent of the eligible cost basis. For the
                       type of property claimed by Panther Creek III, the percentage of the
                       cost basis eligible for award is 30 percent. According to Treasury’s
                       1603 Program guidance, the cost basis of the subject property is
                       ascertained in accordance with the general rules for determining
                       the cost basis of property for federal income tax purposes.
                       Specifically, for this type of property, applicants follow the
                       capitalization procedures found in Treas. Reg. §1.263A-1,
                       “Uniform Capitalization of Costs.”

                       The terms and conditions of award require applicants to certify
                       annually for a period of 5 years following the property’s in-service
                       date that the claimed property (1) has not been sold, transferred, or
                       disposed of to a disqualified person and (2) continues to qualify as
                       a specified energy property. Otherwise, the 1603 Program payment
                       will be subject to full or prorated recapture.

                       Panther Creek III Wind Farm

                       E.ON developed the Panther Creek III wind farm located in
                       Glasscock and Sterling counties, Texas. The subject property is a
                       199.5 megawatt (MW) wind farm which utilizes 133 General
                       Electric wind turbines capable of generating about 677 gigawatt


4
  Section 707 of the Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of
2010 (Pub. L. 111-312, 124 Stat. 3312 (Dec 17, 2010)), extended Treasury’s 1603 Program for
1 year. To be eligible, a property must be placed in service in 2009, 2010, or 2011 or placed in service
after 2011 but only if construction of the property began during 2009, 2010 or 2011 and the credit
termination date of the property has not expired. The application deadline was extended to
September 30, 2012.

                       Audit of Panther Creek Wind Farm III Payment Under 1603 Program            Page 3
                       (OIG-12-062)
                      hours of electrical output annually. Panther Creek III is connected
                      to the Electric Reliability Council of Texas grid.

                      During our fieldwork, E.ON had 10 operational wind farms in its
                      portfolio. As of the end of our fieldwork, E.ON affiliates had
                      received $576 million in 1603 Program payments for six specified
                      energy properties – Panther Creek III Wind Farm, Pyron Wind
                      Farm,5 Inadale Wind Farm,6 Papalote Creek I, Papalote Creek II, and
                      Stony Creek Wind Farm.


Objectives, Scope, and Methodology
                      To assess the eligibility and accuracy of the award made to Panther
                      Creek III under the 1603 Program, we determined whether (1) the
                      property existed, (2) the property was placed into service during
                      the eligible timeframe, and (3) the award amount was appropriate.

                      In performing our work, we visited Panther Creek III’s parent
                      company, E.ON in Chicago, Illinois; interviewed key personnel of
                      E.ON and key personnel associated with its independent public
                      accounting firm; reviewed the application and related documents
                      used by the Department of Energy’s National Renewable Energy
                      Laboratory (NREL);7 reviewed documentation used to support the
                      property’s existence, its placed in service date, and the costs
                      claimed by Panther Creek III; and reviewed the annual performance
                      reports submitted by the awardee for 2010 and 2011. We also
                      obtained clarification from Office of the Fiscal Assistant Secretary
                      (OFAS) and Internal Revenue Service personnel on eligible costs
                      under the program. We performed our work between April 2010
                      and May 2012.

                      We conducted this performance audit in accordance with generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform an audit to obtain sufficient, appropriate

5
  OIG-11-110, RECOVERY ACT: Audit of Pyron Wind Farm LLC Payment Under 1603 Program
(September 28, 2011)
6
  OIG-11-111, RECOVERY ACT: Audit of Inadale Wind Farm LLC Payment Under 1603 Program
(September 30, 2011)
7
  NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.

                      Audit of Panther Creek Wind Farm III Payment Under 1603 Program         Page 4
                      (OIG-12-062)
                evidence to provide a reasonable basis for our findings and
                conclusions based on our audit objectives. We believe that the
                evidence obtained provides a reasonable basis for our findings and
                conclusions based on our audit objectives.


Audit Results
                We verified that the subject property described by Panther Creek III
                in its 1603 Program application does exist, was properly placed in-
                service within the eligible timeframe, and the award amount was
                appropriate.

                   Property Existence

                   We confirmed the subject property’s existence through our
                   review of Panther Creek III’s wind turbine monitoring system
                   located at E.ON headquarters in Chicago, Illinois. We noted
                   active monitoring of 133 wind turbines. We also concluded that
                   the subject property included the wind turbines that had the 1.5
                   MW capacity each as described in the subject property’s
                   application.

                   Placed In-Service

                   We determined that the subject property was placed in service
                   during the eligible time frame through review of documentation
                   supporting Panther Creek III’s in-service date of August 31,
                   2009. Specifically, we reviewed (1) documentation detailing the
                   completion and commission dates for each turbine, (2)
                   correspondence from Panther Creek III’s transmission provider
                   supporting the date Panther Creek III commenced operation, and
                   (3) the inter-connection agreement between Panther Creek III
                   and respective third parties for interconnection service.

                   Appropriate Award Amount

                   We concluded that the amount of $107,636,863 awarded to
                   Panther Creek III was appropriate through our review of
                   documentation supporting the subject property’s cost basis.
                   During our review, we obtained a schedule of all costs in the
                   subject property’s total cost basis of $358.7 million and tested

                Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 5
                (OIG-12-062)
              supporting documentation for cost transactions totaling $231.7
              million. We verified that the selected costs were allowable and
              eligible with one exception. Panther Creek III included $2,488 of
              ineligible cost for window blinds in the cost basis. Window
              blinds are neither a direct nor an allocable indirect cost of
              producing the subject property. Accordingly, we believe the
              amount awarded to Grand Ridge III was appropriate with the
              exception of $746 (30 percent of $2,488).

           Since our visit to E.ON headquarters, we also reviewed Panther
           Creek III “Annual Performance Report and Certification” for 2010
           and 2011 to ensure compliance with Treasury’s reporting
           requirements contained in the applicant’s terms and conditions of
           award. As required for continued eligibility, Panther Creek III
           certified that the property had not been sold or transferred or
           disposed of to a disqualified person and that the property continues
           to qualify as a specified energy property. The next annual report is
           due September 20, 2012.

           Panther Creek III Response

           Panther Creek III management concurred with our recommendation
           and agreed to reimburse $746 to Treasury for the excessive
           payment it received.

Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

           1. Ensure that Panther Creek III reimburse Treasury $746 for the
              excessive 1603 Program payment received for the subject
              property.

           2. Direct Panther Creek III, E.ON Climate and Renewables North
              America LLC, and affiliated companies not to include in
              applications for 1603 Program awards inappropriate or
              otherwise ineligible costs in the claimed cost basis.




           Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 6
           (OIG-12-062)
Management Response

Management concurred with our recommendation and noted that it
will take action to seek repayment from Panther Creek III in the
amount of $746. Management also noted that the 1603 Program
Guidance advised applicants and their affiliates not to include
inappropriate or otherwise ineligible costs in their applications for
awards.

OIG Comment

Management’s response meets the intent of our recommendations.



                                 ******

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Audit Director, at
(202) 927-5784. Appendix 4 lists the major contributors to this
report.



/s/
Marla A. Freedman
Assistant Inspector General for Audit




Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 7
(OIG-12-062)
Appendix 1
Schedule of Questioned Cost




A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds used
to match Federal funds; (2) where the cost, at the time of the
audit, is not supported by adequate documentation; or (3) where
the cost incurred appear unreasonable and does not reflect the
actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                              Questioned Cost

Recommendation 1                                   $746

The questioned cost relates to excessive funds that Treasury
awarded to Panther Creek III under the 1603 Program. The amount
questioned is 30 percent of the excessive costs included in Panther
Creek III’s cost basis. As discussed in the audit report, the
questioned costs in the cost basis consisted of $2,488 associated
with window blinds.




Audit of Panther Creek Wind Farm III Payment Under 1603 Program      Page 8
(OIG-12-062)
Appendix 2
Panther Creek III Response




Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 9
(OIG-12-062)
Appendix 3
Management Response




Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 10
(OIG-12-062)
Appendix 4
Major Contributors To This Report




Donna Joseph, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Angelo Arpaia, Referencer




Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 11
(OIG-12-062)
Appendix 5
Report Distribution




Department of the Treasury

   Acting Assistant Secretary for Management of the Treasury,
      Chief Financial Officer, and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Treasury-wide Accounting and Policy
   Director, Risk and Control Group
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of the Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

E.ON Climate and Renewables North America LLC

   Vice President, Risk and Investment




Audit of Panther Creek Wind Farm III Payment Under 1603 Program   Page 12
(OIG-12-062)
THIS PAGE INTENTIONALLY LEFT BLANK
